                      PERSPECTIVES OF DRUG

                         MANUFACTURERS


     INVESTIGA TIONAL NEW DRUG AND NEW DRUG APPLICA TIONS




          "ERVICE$.
     i-




'0


          IiVd:m
OFFICE OF INSPECTOR GENERAL
OFFICE OF EV ALVA TION AND INSPECTIONS
                                                 FEBRUARY 1990
                    PERSPECTIVES OF DRUG

                       MANUFACTURERS

   INVESTIGATIONAL NEW DRUG AND NEW DRUG APPLICATIONS




                          Richard P. Kusserow
                          INSPECTOR GENERAL




OEI-12- 90- 00771                               FEBRUARY 1990

                                                                              ...




                                  EXECUTIVE SUMMARY


PURPOSE
The purose of this report is to describe the perspectives of selected drg manufacturers
regarding Foo and Drug Admnistration (FA) review of investigational new drg (INDs)
and new drg applications (NAs). This is one of several reports being issued by the Offce
of Inspector General (OIG) in connection with FDA' s approval of new drgs.

This report contans the accounts of manufactuers regarding their experiences        and opinions of
FDA' s review of INs and NDAs. For maximum benefit, the reader should consider this
information along with the results of independent analysis conducte by the OIG regardig
FDA' s approval of new drgs.



BACKGROUND

Under the Federa Foo , Drug, and Cosmetic Act (" the Act ), as amended, the FDA , U.
Deparent of Health and Human Services , is responsible for approving new drgs before
they can be marketed in the United States. The Act defines a new drg as " any drg
(that).. .is not generally recognized... as safe and effective for use under the conditions
perscribed, recommended, or suggested in the labeling.... " (21 U. C. section 321.) The FDA
is charged with ensurg that the drgs it approves are both safe and effective for their
intended uses.

Investigational New Drug Application (IND)

To begin clinical studies on a drg product for human use, a sponsor (generaly a
pharaceutical company or a research organization) must receive an exemption from FDA
from the Act s provisions prohibiting distrbution of new drgs not having approval from
FDA. (21 U. C. 355(i). ) To obtan this exemption , the sponsor supplies the FDA with a
Investigational New Drug (IND) application containing all of the known information on the
drg. This information is priary data from studies conducted on animals, unless the drg
has been used in Europe or elsewhere. Additionally, the sponsor must provide the FDA with
detailed protocols, describing how the proposed human clinical trals wil be conducted.

Generaly, clinical trals are cared out in thee phases. Phase 1 trals are conducted       primarly
to determne the safety of the drg and generally contain a small number of healthy
volunteers, from 20 to 100. Phase 2 trals involve admnistering the drg to patients with the
disease or condition for which the drg is intended to treat to determine whether the drg is
effective. Phase 3 clinical trals are the most extensive of all , involving up to several thousand
patients. These trals provide information such as dosage rates and schedules that wil alow
 the drg to be marketed and used safely and effectively.

New Drug Application (NDA)

A New Drg Application (NA) is a sponsor s request to the FDA for approval to maket a
new drg. The NDA is the compilation of all of the clinical data regarng the safety and
effcacy of the drg, as well as manufacturing information.



METHODOLOGY

To assess manufacturers ' perspectives regarding FDA drg approval, the DIG invited 24 firms
to discuss their experiences with, assessments of, and suggestions for improving FDA drg
approval. All 24 firms agreed; the   fis  parcipating in the study are listed in appendix A.

Of the 24  fis
            listed, representatives of 15 discussed their professional experiences with the
IN and NDA review process. The results of those discussions are described in this report.

FINDINGS


       All 15 manufacturers interviewed concerning FDA review of INs and NDAs
       consider the Agency effective in ensuring that drugs entering the marketplace
                              Overall , respondents we interviewed concerning FDA'
       are safe and effective. 


       approval process for new drg products were less critical of the Agency than
       those we interviewed concerning FDA's approval for generic products.




For the following points, a majority of respondents

                believe FDA provides adequate guidance to manufacturers on how to develop
                and submit successful INDs and NDAs;

                have found the IND rewrite useful;

                were generally satisfied with communication between their firm   and   FDA;
             are satisfied with FDA' s decisions regarding IND and NDA submissions; and

             consider FDA staff qualifed, competent, andfair-minded.



Respondents are mixed regarding

             whether FDA pays suffcient attention to the need for timely action on original
             NDAs. However, most respondents believe the agency pays insuffcient attention
             to the need for timely action on supplemental NDAs.



Respondents also believe

             FDA review is inconsistent and il-planned.



Respondents suggested a numer of   changes   to improve the IND and NDA approval processes.


AGENCY COMMENTS

The OIG briefed FDA offcials on the findings and manufacturer recommendations from this
surey. The FDA offcials provided a number of clarfying technical comments to the report.
A copy of the Agency s comments regarding the results of the surey and our briefing are
attached at appendix B.
                                                                                                                                                                              . . . . . . . . ... .. .. . . ..
                              . . . .. .. .. .. ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ............ .... .............................. .. .. .. .. . . .




                                                                          TABLE OF CONTENTS
EXECUTIVE SUMMARY

INTRODUCTION.




              Purpose                                                                                                                                                     . . . . . . . . . . . . . . . 1




              Background.




              Methodology
FINDI NGS 

                            ....................................................... 6


ENDNOTES.




APPENDIX A

              LISTING OF PARTICIPANTS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A -

APPENDIX B


              AGENCY COMMENTS. . . . . . . . . . . . . . . . . . . . . . . . . .                                                                                                                                     B-1
                                                                              ...




                                       INTRODUCTION



PURPOSE
The purose of this report is to describe the perspectives of selected drg manufacturers
regarding Foo and Drug Admnistration (FA) review of investigational new drg (INDs)
and new drg applications (NAs). This is one of severa report being issued by the Offce
of Inspector General (OIG) in connection with FDA' s approval of new drgs.

This report contains the accounts of manufactuers regarding their experiences and opinions of
FDA' s review of INs and NDAs. For maximum benefit, the reader should consider this
information along with the results of independent analysis conducte by the DIG regardig
FDA' s approval of new drgs.



BACKGROUND

Under the Federal Foo, Drug, and Cosmetic Act (li the Act ), as amended, the FDA , U.
Deparent of Health and Human Services, is responsible for approving new drgs before
they can be marketed in the United States. The Act defines a new drg as " any drg
(that).. .is not generally recognized... as safe and effective for use under the conditions
perscribed , recommended , or suggested in the labeling.... " (21 U. C. section 321.) The FDA
is charged with ensurig that the drgs it approves ar both safe and effective for their
intended uses.

Investigational New Drug Application (IND)

To begin clinical studies on a drg product for human use, a sponsor (generaly a
pharaceutical company or a research organization) must receive an exemption from FDA
from the Act s provisions prohibiting distrbution of new drgs not having approval from
FDA. (21 U. C. 355(i). ) To obtan this exemption , the sponsor supplies the FDA with a
Investigational New Drug (IND) application containing all of the known information on the
drg. This information is priary data from studies conducted on animals, unless the drg
has been used in Europe or elsewhere. Additionally, the sponsor must provide the FDA with
detailed protocols, describing how the proposed human clinical trals wil be conducted.

The FDA reviews the initial IND application requesting the exemption to determe if studies
may proceed safely using human subjects. The FDA has 30 days in which to make its initial
safety assessment and notify the sponsor of any concerns. After this time and if no safety
concerns have arsen , the sponsor may proceed with clinical trals in humans. If FDA has
safety concerns regarding the drg product at this time or at later points durng clinical testing,
it places a clinical hold on the trals. For later phases of drg testing, FDA may also place a
tral on clinical hold if the tral' s design is inadequate to meet its stated objectives. Once FDA
places a clinical hold, sponsors suspend clinical trals until the safety concern has been
resolved to FDA' s satisfaction.

Generaly, clinical trals ar cared out in thee phases. Phase 1 trals are conducted primarly
to determne the safety of the drg and generaly contain a smal number of healthy
volunteers, from 20 to 100. Phase 2 trals involve admnistering the drg to patients with the
disease or condition for which the drg is intended to treat to determne whether the drg is
effective. Phase 3 clinical trals are the most extensive of all , involving up to several thousand
patients. These trals provide information such as dosage rates and schedules that wil alow
the drg to be marketed and used safely and effectively.

When sponsors submit an application for an IND exemption to FDA , it must contain certai
information This information includes: (1) a cover sheet containing pertinent information
about the sponsor, name of the investigational drg, and information on the Institutional
Review Board and any contract research organizations; (2) table of contents; (3) introductory
statement and general investigational plan; (4) investigator s brochure containing summares
of pharacological and toxicological effects, pharcokinetics and biological disposition , as
well as human safety and effectiveness information and a description of risks; (5) protocols
outlining each study; (6) chemistr, manufacturing, and control information; (7)
pharacology and toxicology information; (8) previous human experience with the drg; and
(9) additional information on drg dependence and abuse potential of the drg. (21 CFR
section 312. 23.


In 1987 , regulations concerning the submission of INDs were revised. These new regulations
are referred to as the " IN rewrte. " The IN rewrte established deadlines for safety reports,
encouraged meetings between FDA and the sponsor to discuss concerns, and alowed
increased autonomy of sponsors in Phase 1 clinical trals. The IND rewrte also required
sponsors to provide the FDA with an annual report which would , among other things, detail
the plans for the drg s clinical development during the upcomig year and describe any
safety problems that the sponsor has discovered.

The sponsor may meet with the FDA at certain points during clinical development. An
  end-of- Phase 2" meeting taes place before large-scale testing in Phase 3 is begun. This
meetig allows the FDA and the sponsor an opportunity to discuss data that wil be required
from the Phase 3 trals to complete the safety and efficacy profie of the drg. At the
completion of Phase 3 trals and before filing the New Drug Application (NDA), the sponsor
may also meet with the FDA. This is called the "pre- NDA" meeting. This meeting allows the
FDA and the sponsor to discuss the nature and presentation of data to be included in the NDA.
New Drug Application (NDA)

A New Drg Application (NA) is a sponsor s request to the FDA for approval to maket a
new drg. The NDA is the compilation of all of the clinical data regarding the safety and
efficacy of the drg, as well as manufacturing information.

Specific information must be included in the NDA submitted by manufacturers to the FDA for
approval to market a new drg. This information includes, among other things: (1)
application form contaiing identifying data of the sponsor and drg; (2) index; (3) summar
of submission contaning proposed labeling, statement of intended use, description of
marketing history, and risk/enefit analysis; (4) chemistr, manufacture, and control section;
(5) nonclinical pharcology and toxicology section; (6) human pharacokinetics and
bioavailabilty; (7) microbiology section (for anti-infective drgs); (8) clinical data section; (9)
statistical section contaiing statistical evaluation of the clinical data; and (10) case report
tabulations contaiing tabulations of data from Phase 1 , and 3 trals. (21 CFR 314. 50.

FDA classifies submissions according to the chemical type and most importantly, the
tratment potential, to determe review priorities. According to FDA procedures, innovative
compounds that ar used to treat diseases and conditions for which there are no other
tratments receive the fIrst priority in review.

Once an application is submitted, FDA has 60 days to determne if the application may be
fIed. This  means that FDA has made a threshold determnation that the application is
suffciently complete to allow a substantive review. Once the application is fIed, FDA then
has 180 days to review an application and send the applicant either an " approval" letter, an
 approvable " letter, or a " not approvable " letter. This 180- day period is referred to as the
 review clock.

An " approval" letter means a wrtten communication to the application from FDA approving
an application. Only after receiving an " approval" letter from FDA may a manufacturer
market the drg that is the subject of the application. An " approvSl" letter means a wrtten
communication stating that the Agency   wil  approve the application if certn conditions are
met (such as changes in the manufacturng controls). A " not approvable " letter means that the
Agency does not consider the application approvable due to deficiencies identified in the
application.

Durig the review, communication takes place between FDA and the applicant. A " ninety- day
conference " is offered to applicants approximately 90 days after the agency has received the
application , durig which FDA discusses with the applicant the status of the application
progress made to date in the review of the application , and deficiencies identified thus far in
the review. An " end of review conference" is offered to applicants after they receive an
 approvable " or " not approvable " letter to discuss what steps the manufacturer must take to
get the application approved.
Once an application is approved, cenain changes may be made by the maufacturr in
manufacturg and marketing the drg. Depending on the type of change made (e. g., changes
in drg substance or drg product that affect performance versus editorial change in labeling)
the manufactuer must either submit (1) a supplement reuirng FDA approval before changes
can be made; (2) a supplement describing changes to FDA that have alady been made; or (3)
a description of the types of changes made in the next annual report to the Agency. Only
information relatig to the change must be included in the supplement.


Regulations concerning NDA submissions were updated in 1985. These revised regulations
are referrd to as the " NDA Rewrte. " The new regulations provided several additional safety
featues including safety reports after submitting the application and strngthened monitoring
of adverse drg reactions from marketed drgs. The revision also faciltated review by
requirng more focused and better organized data, use of summares and tables, and allowance
of approval on the basis of foreign studies alone.


METHODOLOGY

To assess manufacturers ' perspectives regarding FDA drg approval, the OIG invited 24 fIrms
to discuss their experiences with , assessments of, and suggestions for improving FDA drg
approval. All 24 fIrms agreed; the firm paricipating in the study are listed in appendix A.

Of the 24 fi listed, representatives of 15 discussed their professional experiences with the
IND and NDA review process. The results of those discussions are described in this report. 1

Prvious work done by the Office of Planning and Evaluation , Offce of the Commssioner
FDA, formed the framework for conducting this study. Pror studies titled Agency Impact
Analyses (AlAs) examned the effect of FDA practices and procedures on a regulated industr
by collecting and analyzing the perspectives of executives of some of the regulated firms.

About the Interviews

The fIrms invited to parcipate in the OIG interviews were selected to ensure approximately
equal distrbution of fIrmsexperienced in generic drg and new drg approval. Respondents
from seven fIrms had experience with both processes. Manufacturers interviewed were
concentrated in New York , New Jersey, and Pennsylvania, although interviews also took place
with manufacturers in Colorado, Delaware, Illinois, Ohio, and West VIrginia.

Generally interviews were conducted with the chief executive offcer, president, and/or
regulatory affais diector and staff of the fIrms selected. A total of 49 individuals were
interviewed. The 24 fIrms visited durng the course of our surey had by their own estimation
submitted in excess of 450 investigational new drg applications, 150 new drg applications,
and well over 1  000 abbreviated new drg applications and abbreviated antibiotic drg
applications in the past 5 years.

Interviews were conducted in August and September, 1989. To conduct the interviews, all of
which were conducted in person , the OIG used a strctued discussion guide askig
respondents about their experiences and opinions regarding varous aspects of application
review and approval. Respondents were asked how they view guidance from the agency,
communication with the agency, review of applications by the agency, and decision-makng
by the agency.

Because the manufactuers selected do not necessarly reflect a representative sample of all
manufacturers, their views mayor may not constitute a consensus opinion of al
manufactuers. In adtion , the OIG study team did not attempt to veriy or validate the
legitimacy of claims or concerns expressed by the firms. Consequently, we do not
recommend specific action to the FDA based on the results of these interviews. Rather, we
have presented the recommendations made by the manufacturers interviewed for FDA'
information and consideration.
-- ., 
   -- '
      , .-..                                                                                                          .:.:.:.;.:.
                                                                                                                      ,;,:,;.;.:.




                                                                         FINDINGS


                            All 15 manufactuers interviewed concerning FDA review of INDs and NDAs
                            consider the Agency effective in ensuring that drugs entering the marketplace
                           are safe and effective. 
           Overal , respondents we interviewed concerning FDA'
                            approval process for new drg products were less critical of the Agency than
                           those we interviewed concerning FDA' s approval for generic products.                      ff1i




                  For the following points, a majority of respondents

                                       believe FDA provides adequate guidance to manufacturers on how to develop
                                       and submit successful INDs and NDAs;


                                       have found the IND rewrite useful;


                                       were generally satisfied with communication between their firms and FDA;


                                       are satisfied with FDA' s decisions regarding IND and NDA submissions; and


                                       consider FDA staff qualifed, competent, andfair-minded.




                 Respondents are mixed regarding

                                      whether FDA pays suffcient attention to the needfor timely action on original
                                      NDAs. However, most respondents believe the agency pays insuffcient attention
                                      to the needfor timely action on supplemental NDAs.



                 Respondents also believe


                                      FDA review is inconsistent and il-planned.




                 Respondents suggested a number of changes 
                to improve the IND and NDA approval processes.

                 Each of the findings is discussed in more detal below.
All manufacturers interviewed regarding new drug approval believe FDA is effective in
ensuring that drugs entering the marketplace are safe and effective.

All 15 respondents interviewed concerning IN and NDA review feel FDA does an effective
job in ensurng that drgs entering the maket are safe and effective. One respondent who
rated the agency as very effective, added, " They (FA) have fulf1led their charer well; in
fact your scale is not high enough in this regard. " Severa manufactuers observed that FDA
is highly regarded worldwide for its safety stadards.

The majority of respondents believe the Agency provides adequate guidance to
manufacturers on how to develop and submit successful INDs and NDAs.

The majority of respondents (11) rated the guidance from the FDA in preparg the original
IN as adequate or more than adequate. Guidance relied on by manufacturers to develop
their INs includes discussions with FDA staf, regulations, and guidelines. "The guidance is
adequate, " said one respondent " (We get it) both verbally and though documentation.

Severa respondents believe that FDA should attempt to update guidelines for clinical
development, which they considered to be out of date. For example, one respondent who
considered FDA guidance on developing an IN submission adequate added, "While the
guidelines ar clear, they re old... " Another respondent who considered agency guidance
inadequate pointed to this as the reason: " Clinical guidelines have not been updated in alost
13 years.

Most respondents (13) also feel information provided by the agency on how to prepare and
submit NDAs is adequate or more than adequate. Again, guidance relied on by maufacturers
to develop their NDAs includes discussions with FDA staf, regulations, and guidelines.

Most respondents have found the IND rewrite useful.

The majority of respondents (9) reported that the 1987 rewrte has been very or moderately
useful to them in preparg successful IND submissions. Five respondents consider the new
regulations of little use; one respondent was unsure. " It codfied a lot of the process that
people had previously guessed at based on past experience, " said one respondent. Another
respondent added, " It helped a lot; (FDA) really took the best practices of many companies
and combined this in the regulation. One company does (one thing) really well , so FDA
decided that everyone should adhere to that practice; one company does (another thing) really
well , so FDA decided that everyone should adhere to that practice; and so on.

Overall, respondents indicated that the rewrte has resulted in more work for sponsors since
more information must be submitted. Most of the manufacturers indicated they had no
problem with supplying the FDA with more information if it helped the reviewers. However
several respondents wondered whether the additional information , especially the annual
report, was being reviewed at FDA or simply fied.
Some manufacturers believe that the use of clinical holds has increased since the
implementation of the IND rewrte. One respondent indicated that the 30-day review period is
not allowing reviewers the tie they feel they need to perform a safety review, causing them
to be overly cautious. He explained, "The regulations themselves ar very goo... (but) FDA
does not seem to fully follow the intent of the regulations. The problem of clinical holds has
become a bigger problem since the IN rewrte. Since they only have 30 days, sometimes
you get a ' knee-jerk' reaction if they have any question at all."

Respondents were generally satisfied with communicaton between their firms and FDA.
However, they emphasized that communication must be timely and accurate in conveying
the agency s position in order to be most useful.

Checking on the status of applications. 
 Two-thirds of the respondents (10) considered it fairly
easy to check on the progress of an IN submission. Respondents indicated that Consumer
Safety Offciers (CSOs) are generally eager to help and provide status repons. Slightly more
than one- half of the respondents (8) considered it fairly easy to find out the progress of a NDA
submission and its status. A few respondents (2) thought checkig on NDA status was
diffcult and several (3) indicated it vares from division to division.



Communicating with FDA during clinical trials. 
   Almost al of the respondents indicated that
they had attended the varous meetings made available by FDA durg the        IN phase. The
majority of respondents rated these meetings, which include the "End of Phase 2" and
 Pre- NDA" meetings, as very useful and generally indicated that they would take advantage
of any opportunity presented to meet with reviewers. " You would be out of your mind not to
sit down with reviewers and discuss the submission when given the opportunity, " said one
respondent.

Respondents did note, however, that conclusions reached in "End of Phase 2" and "Pr- NDA"
meetings could not always be considered final. " (You) can have a well- documented meeting
but because division dictors aren t present, FDA doesn t feel obligated to adhere to
agreements, " one manufacturer said. " Sometimes you need to have certn individuals present
to know that meeting results wil fly.

VIrually all manufacturers had sought advice from FDA during the coure of clinical trals
and found that advice useful. However, timeliness is crucial to sponsors , especialy when
changes and additions are needed in clinical protocols and studies durng the IND phase.
Severa respondents related incidents where FDA had contacted them with changes in the
design of clinical trals only to fmd out the tral had already been completed.

Communicating with FDA during NDA review.       Nine respondents had attended a " ninety- day
conference " and 10 had attended an " end-of-review conference
- . '';-




           Respondents who had attended a " ninety- day conference " were split on their usefulness.
           Accordig to several manufacturers, FDA frequently has not had suffcient time to even begin
           the review at the time of the " ninety- day conference Some respondents thought that, for this
           reason , FDA often wil not grant requests for these meetigs. "We attended one ' ninety- day
           conference ' and found it very useful , said one manufacturer. "But we have... reueste
           numerous other ('ninety- day conferences ). These did not take place because FDA said, '
           have nothing to tal about

           Nine of the 10 respondents who had attended an " end-of-review conference " found them
           useful. At these meetigs, manufactuers discussed with FDA continued testing for adverse
           drg reactions , final labeling, and other issues of interest.


           Respondents are generally satisfied with the Agency s decisions regarding IND and NDA
           submissions.

           The majority of respondents (13) were satisfied with the final decisions made by the FDA
           regarding their IN submissions. Many manufactuers pointed out their concerns are with
           how FDA reaches their decisions, not what decisions are made. One respondent described
           himself as " ultiately satisfied with decisions, but frstrted along the way. " Another
           respondent stated, "Decisions are always justifiable and based on some sound priniciples of
           science. " However, this same respondent went on to point out that " what is missing is the
           discussion between industr and FDA on those scientic questions.

           Severa respondents expressed frustration with clinical holds. One manufacturer stated,
            There have been open-ended delays with clinical holds. FDA does not have a sense of
           urgency to remove clinical holds... during the course of an IND (phase), we can have formal
           and informal clinical holds. With informal clinical holds, we can have questions on a mior
           par of the protocol disrupt the program. " Several manufacturers mentioned that they believe
           FDA is aware of the problem with " informal" clinical holds and is moving to address it.

           The majority of respondents (12) expressed simlar satisfaction with the decisions made by
           FDA regardig NDA submissions. Again , however, many of the respondents would like to
           see decisions reached more quickly on NDA submissions. One respondent stated, " (It) just
           taes them longer to reach the same decision (that we would have)."


           Respondents consider FDA staff qualifed, competent, andfair-minded.

           The majority of the respondents consider the FDA staf with whom they work to be qualified
           (11), competent (8), and fai-minded (12). Several respondents believe that these qualties
           var significantly from employee to employee.

           Several respondents mentioned several factors they feel affects the abilty of FDA staff
           car out their function, such as less than desirable working conditions, relatively low pay, and
insuffcient staffing. One respondent felt that the FDA staff " get a bum rap " and that

 taxpayers are gettig a goo deal for their money. " One respondent commented that the

workig conditions were bad and he "probably couldn' t do a better job.


Another respondent felt that the work system at FDA does not reward industrousness:

 (There are) no rewards in FDA for workig hard and goo. There are only penalties for

getting a drg out if anything goes wrong. If a reviewer works rapidly, they just get another

assignment. "



Respondents have mixed opinions on whether the Agency pays suffzcient attention to the
need for timely action on original NDAs. However, most respondents believe the agency
pays insuffzcient attention to the need for timely action on supplemental NDAs.

A slight majority of respondents (8) believe that FDA is ineffective in ensurig that drgs
enter the marketplace in a timely manner. However, almost as many (7) thought FDA is
effective in getting applications processed in a timely manner. One respondent who considers
FDA ineffective argued, "After five months they know (the drg) is safe and effective; the rest
is unnecessar details, bureaucracy, and poor management. " A few respondents thought FDA
is too cautious in its review, expressing the opinion that FDA " goes overboard" in ensurng
safety and over-emphasizing the risk side of the risk/enefit relationship. Another respondent
disagreed , rating the agency as effective in ensuring the timely movement of drgs to market
and arguing that delays were generaly the fault of industr: " The overwhelming factor that
usually influences review tie    is the quality of the data sent to FDA"

All of the manufactuers interviewed had submitted at least one supplemental NDA. The
majority (11) believed that supplementas were reviewed less expeditiously and received a
lower priority than NDAs. Several manufacturers expressed frustration with this situation
saying that FDA had diected them to streamline original NDAs and pursue additional
indications later in supplemental NDAs. The manufacturers we interviewed said that they
understand that new drg approvals are the top priority at FDA , but they pointed out that
expanded indications from aleady marketed drgs provides companies with revenue for
research and development.

Respondents disagreed on whether FDA is effective in establishing review priorities in order
to expeditiously review certain applications. Most manufacturers agred that except in the
case of l- AA compounds, such as those to treat AIDS, the classification a drg reeives has
little bearng on review time. "The difference between a priority NDA and a nonpriority NDA
in terms of average review time to approvable is only about three months, " declard one
respondent.

Respondents believe that FDA review is inconsistent and il-planned.

The majority of respondents consider FDA review of NDAs inconsistent (12) and FDA review
of INDs inconsistent (13). Respondents characterized the review process as highly varable
from division to division and from reviewer to reviewer in a given division. Respondents
attrbuted the varabilty to lack of guidelines and standard operating procedures for reviewers,
as well as individual differences in background, interest, and dedication. One manufacturer
reported, "We have cases in which the same set of data used to support 10 approved NDAs is
suddenly found to be deficient by a reviewer in another division.

Severa manufacturrs believed that the worst scenerio is having a change of reviewers durng
the course of the IN and NDA submission. According to respondents what was accepted and
agreed upon for clinical studies may no longer be acceptable with a new reviewer.
Inconsistency among divisions is especially apparent when a reviewer switches to a new
division and tres to apply the standads of the former division to the review process.
Respondents also pointed out that divisions use their advisory committees in differig
capacities which results in diferences in some management practices.

The majority of respondents (9) also considered the review ofINs il- planned. Respondents
concerns about the lack of planning in the process focused on identifying deficiencies late in
the review process, asking inappropriate questions early in the clinical development, and
lacking on- going review of clinical information in the IN phase. One manufactuer stated,
 you proceed until you hear but this often causes delays because you have not been informed
early on. " Another manufacturer noted, " (Review of) the original IND is well-planned, but
the entie process is not. Throughout the process, we are not sure that anybody is looking at
the data we send in. FDA is innundated with paper and has no time to pull the entire IN and
reflect on it as a whole. We get to a pre- NDA meeting and find out that we ar supposed to
redo a toxicology study we did five years ago. FDA has had the data for five years; why are
we just finding out about their concerns?"

Comments were similar concerning the NDA process, with lO respondents feeling that the
review process is il- planned. Severa manufacturers reported the same experience: receiving
questions from reviewers that are addressed in the submission , to which the manufacturer
replies, " See page 4 , paragraph 2 , of our submission ; and receiving new questions after an
initial letter stating the application s deficiencies have been received by the manufacturer and
addressed.

Respondents suggested a number of changes to improve the IND and NDA approval
processes for innovator drugs.



              Overall, respondents would like to see a less adversarial relationship with FDA.
             Several respondents indicated they feel FDA views their role as a policing job
             instead of a regulatory agency. Manufacturers would like to see an
             agency- industr "parnership " in getting new drgs to the market.

             Morefeedback to industry on protocols and submissions during the IND phase.
             The majority of the manufacturers interviewed would like to have more input
 from FDA on the design of clinical trals. Respondents feel FDA should be
 wiling to look to the future and be more specific of what they wil require of
 future studies.




 Update guidelines.             Respondents would lie to   see guidelines updated,
 especially those relating to clinical trals.

 Earlier-or later-involvement by       FDA in the IND process.   Some of the
  respondents would like to see FDA involved in the overall clinical development
  of the drg at an earlier point These manufactuers would like more security
  that the development coure they are following is one that FDA approves of. An
  equal number of manufactuers would like to see the IN phase deregulated,
. with less FDA involvement. These respondents feel that liabilty concerns
  sufficient to ensure that safety issues are adequately addresssed. Some
  manufacturers would also like to see detailed product formulation data and
  manufacturing information requested at a later point in time, not in the initial
  IND.

 Complete review of data as it is submitted during the IND phase. 
 Respondents
 would like to see review of the NDA become more of a final formality in the
 review process. Manufacturers pointed out that generally the information
 submitted in the NDA has already been sent to the FDA and many times has
 aleady been approved once. Respondents feel that too much      is spent tie
 re-reviewing data.

Develop standard operating procedures for review. 
 Respondents would like to
 see more consistency from reviewer to reviewer and among diferent divisions.
 Manufacturers suggested developing standad operating procedures and
 guidelines for reviewers to reduce inconsistency.

Hold to review clocks. 
Manufacturers acknowledged it would be diffcult for
 FDA to complete NDA reviews within the current 180- day              tie
                                                                  frame. They
 would like to see more realistic time frames established and have FDA stay
 within them. Several manufacturers felt that reviewers did not feel bound by the
 curnt 180- day period because the tie frame is so unrealistic.


Clarif regulations and role offoreign data.    Manufacturers would like to see a
more accepting attitude from FDA towards foreign data. Severa respondents
indicated they would like to see further clarfication in the regulations specifying
exactly how much of the foreign data needs to be submitted and will be accepted
by FDA.
Change the way supplemental NDAs are handled.      Manufacturers would like to
see more timely review of supplemental NDAs. They suggested the review time
could be shortened by having the reviewer of the original NDA handle all
supplements for that drg. This would prevent another reviewer from losing
significant time reviewing the original NDA prior to looking at any supplements.

Improve management. 
       Respondents would like to see some changes in the
management strcture at FDA.        It was Ii frequently expressed opinion that

divisional diectors were being asked to do too much in tring to be both
scientist and manager. Respondents also felt that managers rarly contradict      or
overrde the decisions of the reviewers under them and are      afd   to do so.
Respondents would like to see more managerial control over individual
reviewers.

Increase staffng. 
Several manufacturers expressed the feeling that even if all
management and procedural concerns could be resolved, insuffcient personnel
would still prevent FDA from being able to ensure timely approval of new drgs.

                                                           Respondents
Better understanding ofpharmceuticaZ manufacturing issues. 


suggested exchange progrs with the industr as a method for FDA staff to
become more famliar with the pharaceutical manufacturng process.
                                           ENDNOTES



1. Sixteen manufacturs discussed their professional experiences with FDA review of
     abbreviated new drg applications. For the results of these discussions,               see Offce of
     Inspector General, Offce of Evaluation and Inspections,                 Perspectives of Drug
     Manufacturers: Abbreviated New Drug Applications, OEI; 12- 90- 00770, Februar 1990.


2.   See Foo and Drug Admnistration , Offce of the Commssioner, Offce of Planning and
     Evaluation,     Agency Impact Analysis: Fruit Juice, The Perceptions ofTen Firm, OPE
     Study 70 , June 1984, and  Agency Impact Analysis: Salad Dressings, The Perceptions of
     Ten Firm, OPE Study 64, May 1983.
                              APPENDIX A


                  LISTING           OF    PARTICIPANTS


 Abbott Laboratories


 Amersham Corporation
  American Cyanamd Company

  Bar Laboratories

  Biocraft Laboratories

. Bolar Pharaceuticals
  Eli Lily and Company
    D. Searle & Company

  Geneva Generics

  Hoechst-Roussel Pharaceuticals, Inc.

  Hoffmann- La Roche, Inc.

  ICI Pharaceuticals Group
 Lemmon Company

 Lyphomed, Inc.
 Merck Shar & Dohme

 Mylan Laboratories

 Orho Pharaceutical Corporation

 Pfizer Incorporated

 Roxane Laboratories, Inc.

 Rugby Laboratories, Inc.
 Sandoz Corporation

 Schein Pharaceutical,      Inc.

 Schering-Plough Corporation

 Smith , Kline, & French





                                         A - 1

  APPENDIX B



AGENCY COMMENTS

      - '". . =- .
. ,. .,




               "VlCU.


                            DEPARTMENT OF HEATH &. HUMAN SERVICES               Public Health Service
                            Foo and Dru Adnistration
                                                                                Memorandum
                     Date   . February 9, 1990
                     From   Acting Commissioner of Food and Drugs


                 Subject    eIG Research on Perceptions of Drug Approval Processes


                            Inspector General


                            I want to thank your staff for sharing with FDA managers the

                            recent eIG research into the perceptions of pharmaceutical

                            executives regarding FDA' s new drug and generic drug approval
                            processes. In  my prior FDA experience, I have always found
                            opinions and observations expressed by parties affected by FDA
                            to be a valuable source of feedback on agency performance.
                            FDA was particularly interested in industry perceptions about
                            the drug approval processes last Fall, and I am pleased that
                            your staff was able to collect this information for us so soon
                            after Dr. Sullivan announced the various initiatives to
                            strengthen FDA' s drug review processes. This information gives
                            FDA a very helpful insight as we proceed to strengthen these
                            processes.
                            In addition to receiving the information itself, the process of

                            sharing this information in a workshop setting with your staff

                            was a positive experience. I look forward to more such

                            interactions and exchanges between our  staffs.


                                                              fjs   S. Benson
